             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                          May 22, 2013

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

From:         MichaelP.Colombo          ~.VJZ pc::;Z~/a
              Western Regional     ~;-;or Audits, Inspections, and Evaluations
Subject:      Verification Review of Recommendations for the Evaluation Report, "Aviation
              Maintenance Tracking and Pilot Inspector Practices - Further Advances Needed"
              (WR-EV-OSS-0005-2009, April2009)
              Report No. WR-VS-OSS-0012-2013

        The U.S. Department of the Interior (DOl) Office of Inspector General (OIG) has
completed a verification review of the three recommendations presented in the subject evaluation
report. The objective of the verification was to determine whether the Office of Aviation
Services (OAS) implemented the recommendations as reported to the Office of Financial
Management (PFM), Office of Policy, Management, and Budget. PFM reported to OIG when
OAS had addressed and provided supporting documentation for each of the three
recommendations in the subject report. Based on our review, we concur that all
recommendations are resolved and implemented.

Background

        Our April 2009 evaluation report, "Aviation Maintenance Tracking and Pilot Inspector
Practices - Further Advances Needed," contained three recommendations pertaining to tracking
aviation operation and maintenance and pilot inspector training.

       In a memorandum dated May 6, 2009, OAS, formerly known as National Business
Center Aviation Management Directorate, provided its plan of action to address two of the
recommendations. Based on this memorandum, we considered Recommendation 1 resolved and
unimplemented and Recommendations 2 and 3 unresolved and unimplemented.

        PFM reported all recommendations had been implemented and closed. On May 19, 2011,
however, OIG issued a subsequent memorandum requesting that Recommendation 1 be reopened
as resolved and unimplemented based on the closure memorandum from PFM on May 5, 2011.
PFM did not provide a response, and the recommendation remained closed.




                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

      The scope of this review was limited to determining whether OAS took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that OAS provided and discussed actions taken relating to each of the three
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether OAS had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for the Inspections of the
Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We determined that all three recommendations have been implemented.

       Recommendation 1: Utilize a centralized web-based maintenance system that provides
       for real-time input of operation and maintenance activities to allow for effective fleet
       management.

        OAS's chief of technical services division confirmed that the web-based maintenance
system was implemented in October 2012. The Aircraft Use Report Manager allows pilots to
create an aircraft use report in about a minute. Data entry personnel are then easily able to upload
the information to the Financial and Business Management System (FBMS).

        In addition, OAS has implemented the maintenance management functionality in FBMS.
This feature will allow OAS to track aircraft, major components, and subcomponent serial
numbers and history information.

       Based on information provided by the chief of technical services division and our review
of documents, we conclude that Recommendation 1 has been resolved and implemented.

       Recommendation 2: Develop a pilot training program syllabus and utilize
       standardization instructor pilots for its helicopter and fixed-wing programs.

       OAS's " Pilot Inspector Flight and Training Evaluation Program" went into effect on
October 1, 2010. The program prescribed policies, guidelines, procedures, and flight time
requirements to be used by OAS to ensure inspector pilots are properly trained and maintain
minimum proficiency levels.

        OAS ' s chief of technical services division confirmed that a pilot inspector for both fixed-
wing aircraft and helicopters had been designated. In February 2013, OAS policy 5400-202 went
into effect. This policy requires pilot inspectors to conduct a pilot evaluation annually under the
observation of appropriate OAS national standardization inspectors.



                                                  2
       Based on information provided by the chief of technical services division and our review
of documents, we conclude that Recommendation 2 has been resolved and implemented.

       Recommendation 3: Evaluate annual pilot inspector flight-hour requirements to
       establish appropriate hours needed to effectively perform their duties and to incorporate
       special-use mission maneuvers during the training.

        In an email from OAS's chief oftechnical services division to the OIG, he explained that
OAS flight-hour requirements are derived from the requirements the Federal Aviation
Administration uses. OAS's "events based currency" program is designed to provide OAS
inspectors with the basic proficiency and skills needed to conduct pilot evaluations. OAS
requires pilots fly "events based currency" tasks at least 6 hours quarterly. In addition, pilots
must also complete 24 hours as "pilot-in-command," which is time they are directly responsible
for the safe operation of the aircraft.

        Special-use mission maneuvers have been incorporated into the training as well. OAS
policy 5400-204 requires maneuvers for both fixed-wing aircraft and helicopters. In addition,
pilots are required to complete a number of one-time flight evaluations.

       Based on information provided by the chief of technical services division and our review
of documents, we conclude Recommendation 3 has been resolved and implemented.

Conclusion

       We informed OAS officials of the results of this review at an exit conference on April 23,
2013. OAS officials agreed with the results of our review.

cc:    Nancy Thomas, Liaison Officer, Office of Financial Management
       Sharon Blake, Liaison Officer, Office of Financial Management
       Mark Bathrick, Director, Office of Aviation Services




                                                3
